fos
I

x . -Mai *
2311 Douglas Street CA Le g al Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Heewgas contact@cocklelegalbriefs.com

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1668

CITY OF TAHLEQUAH, OKLAHOMA;
BRANDON VICK; JOSH GIRDNER,
Petitioners,

v.

AUSTIN P. BOND, as Special Administrator
of the Estate of Dominic F. Rollice, deceased,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the MOTION FOR LEAVE TO
FILE AND BRIEF OF THE NATIONAL FRATERNAL ORDER OF POLICE, AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS CITY OF TAHLEQUAH, OKLAHOMA, BRANDON
VICK, AND JOSH GIRDNER in the above entitled case complies with the typeface requirement
of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text
and 10 point for the footnotes, and this brief contains 5701 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of June, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

hen cries, HOTARY-State of Nebraska Z 2 Z f
hen cries, Goss dedrawr .

My Comm. Exp. September 5, 2023
Notary Public Affiant

 

41107
